CERTIFICATE OF COMPLIANCE

No. 19-1010

AcTAavis HOLDCO, ING., et al.,
Petitioners,

STATE OF CONNECTICUT, et al.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae DRI—The Voice of the Defense Bar in Support of Petitioners contains 4,802
words, excluding the parts of the brief that are exempted by Supreme Court Rule

33.1(4).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 15, 2020.

Scott Burnett Smith

4835-1624-4663,1
